                             Office of the Inspector General

September 24, 1999

John R. Dyer
Principal Deputy Commissioner
 of Social Security

Acting Inspector General


Employee Access to Title XVI Computer Applications and Data (A-13-98-12009)


Attached is a copy of the subject final report. The objective of our audit was to
determine whether, based on job duties, employees had appropriate levels of access to
Supplemental Security Income computer applications and data.

You may wish to comment on any further action taken or contemplated on our
recommendations. If you choose to offer comments, please provide them within the
next 60 days. If you wish to discuss the final report, please call me, or have your staff
contact Daniel R. Devlin, Acting Assistant Inspector General for Audit, at
(410) 965-9700.




                                                 James G. Huse, Jr.

Attachment
           OFFICE OF

    THE INSPECTOR GENERAL



SOCIAL SECURITY ADMINISTRATION




     EMPLOYEE ACCESS TO
     TITLE XVI COMPUTER
    APPLICATIONS AND DATA

    September 1999   A-13-98-12009




AUDIT REPORT

                     EXECUTIVE SUMMARY


OBJECTIVE

The objective of this audit was to determine whether, based on job duties, employees
have appropriate levels of access to Supplemental Security Income (SSI) computer
applications and data.

BACKGROUND

There are concerns that information protection-related weaknesses subject sensitive
Social Security Administration (SSA) information to potential unauthorized access,
modification, and/or disclosure by employees. The U.S. General Accounting Office
(GAO) reported that the SSI program has been affected by internal control
weaknesses, complex policy issues, and insufficient management attention. For these
reasons, GAO identified the SSI program as “high-risk” in February 1997. Additionally,
PricewaterhouseCoopers (PWC) (formerly Price Waterhouse), SSA’s financial
statement audit contractor, recommended that the lack of controls in protecting
information be reported as a material weakness in SSA’s annual Federal Managers’
Financial Integrity Act report for Fiscal Year 1997.

The SSI program, authorized by title XVI of the Social Security Act, is a needs-based
program administered by SSA. The primary automated system for processing SSI
claims is the Modernized Supplemental Security Income Claims System (MSSICS).
MSSICS is a mainframe-based, on-line, interactive claims system. The system allows
for the establishment and processing of SSI claims by accumulating data, such as
identification information, the disability determination decision, living arrangements,
financial resources, income, and potential eligibility for other benefits. SSA controls
employee access to MSSICS and other production mainframe computer resources
(i.e., data files, application and system software programs, and computer-related
facilities and equipment) through the use of Computer Associates-TOP SECRET, or
simply TOP SECRET.

The Office of Management and Budget (OMB) requires that agencies incorporate
security controls into sensitive financial management systems. One basis for assigning
proper access is “least privilege” which is defined as the practice of restricting a user’s
access to the minimum amount necessary to perform job duties or responsibilities. One
of TOP SECRET’s primary mechanisms for controlling user access is through the use




                                             i
of profiles.1 Profiles are sets of transaction identifiers (ID) for groups of users and are
generally defined and assigned according to job position. These transaction IDs permit
access to specific MSSICS computer screens. SSA uses two types of profiles:
standardized and nonstandardized. Standardized profiles are defined as profiles that
remain fixed within the Agency. These profiles are most applicable to operational
positions that are standardized across field locations throughout SSA.
Nonstandardized profiles are generally developed within a component for a particular
person, position, or team and are not standard across field locations or components
such as SSA’s Office of Systems personnel.

We reviewed all 281 standardized MSSICS profiles and identified 62 that provided
access to at least 1 of 8 transaction IDs that are gateway screens for sensitive data
entry or updating functions. Of the 62 profiles, we identified 22 profiles with access
privileges that did not appear excessive using job descriptions as a guide. The
remaining 40 profiles were assigned to 30,450 personal identification numbers (PIN)
that potentially had excessive access. We discussed with security personnel how
these profiles are developed, assigned, and reviewed. SSA could not readily
determine the number of nonstandardized profiles because it would have required a
massive manual effort to produce.

RESULTS OF REVIEW

STANDARDIZED TOP SECRET PROFILES PROVIDED EXCESSIVE ACCESS TO
MSSICS

Of the 62 standardized TOP SECRET profiles we reviewed, 19 (31 percent) provided
MSSICS update capabilities in excess of those needed by SSA personnel to perform
job duties. These 19 profiles control access for 25,330 unique and nonunique PINs.2
One of these profiles was assigned to over 7,500 unique PINs. As a result, employees
using these 25,330 PINs could inadvertently or intentionally change information on SSI
files or send inaccurate data to SSI records. This condition existed for several reasons:
(1) MSSICS software was not designed so that transaction IDs could be assigned to
profiles to achieve adequate segregation of high- and low-risk data entry fields on the
computer screens; (2) security personnel did not change profiles as job positions
evolved; (3) security personnel erroneously assigned improper access; and (4) SSA’s
Systems Security Officer (SSASSO) staff did not adequately review proposed profiles
and did not periodically review profiles to ensure that they remained appropriate. We
did not determine whether any excessive transactions were executed as a result of
excessive access because it was not practical for us to do so. Even without testing, we

1
  TOP SECRET’s two other types of mechanisms for controlling access (data sets and transaction
identifiers assigned directly to individual users rather than being assigned to profiles) were not covered
under the scope of this review.
2
  These PINs can be assigned multiple profiles. Because we counted profiles, PINs can be counted
more than once. PINs that are assigned more than one profile are considered nonunique, while PINs
that are assigned only one profile are considered unique. (See Exhibit 1 on page 3 for illustration.)


                                                     ii
believe the significant number of PINs (over 25,000) with excessive access results in
increased exposure to fraud, waste, and abuse in the SSI program.

NONSTANDARDIZED TOP SECRET PROFILES FOR MSSICS WERE
NOT ADEQUATELY CONTROLLED OR MANAGED

SSA did not adequately control or manage employees’ access privileges through
nonstandardized MSSICS profiles. Nonstandardized profiles are created and
controlled within a component and are not subject to review outside that component by
SSASSO. As a result, SSA cannot determine, without a massive manual effort, the
number of employees, including analysts and programmers, who may have
inappropriate access to input or modify sensitive SSI data. We believe SSA’s
ineffective control and management of its employees’ access privileges continues
because SSA has implemented the profiles in such a way that the readily available
reporting and control mechanisms in TOP SECRET cannot be effectively utilized
without additional programming to monitor and review the access.

CONCLUSIONS AND RECOMMENDATIONS

SSA needs to strengthen security access controls for the 25,330 unique and nonunique
PINs having excessive access. Excessive access could result in loss of data, loss of
funds, and the unauthorized release of personal information. This vulnerability
increases SSA’s exposure to fraud in the SSI program. To establish proper security
controls and effectively implement the policy of least privilege, SSA needs to restrict
authorized employee access. SSA also needs to improve security officers’ monitoring
and oversight of the granting of access throughout SSA.

FINDING: STANDARDIZED TOP SECRET PROFILES PROVIDE EXCESSIVE
ACCESS TO MSSICS

We recommend that SSA:

•	 Remove excessive or inappropriate transaction IDs from those profiles identified as
   having excessive access (see Appendix A).

•	 Examine the activity in the audit trail files of all PINs assigned to the profiles
   identified in Appendix A to determine whether excessive transactions were
   performed which may indicate fraud and refer any violations to the Office of the
   Inspector General (OIG).

•	 Review all other MSSICS TOP SECRET profiles and remove those transaction IDs
   that permit inappropriate or excessive access for the assigned duties and
   responsibilities.




                                            iii
•	 Modify MSSICS software to segregate access between high- and low-risk data entry
   fields.

•	 Provide improved training and guidance to security officers assigning and reviewing
   transaction IDs to standardized TOP SECRET profiles for which they are
   responsible. As part of this training, SSA should provide improved system flow
   charts and functional descriptions of new transaction IDs, particularly for major
   software releases when many new capabilities are added.

•	 Perform periodic post-implementation reviews of profiles by security staff for proper
   assignment of transaction IDs to profiles based on the concept of least privilege.

FINDING: NONSTANDARDIZED TOP SECRET PROFILES FOR MSSICS ARE NOT
ADEQUATELY CONTROLLED OR MANAGED

We recommend that SSA:

•   Require that SSASSO staff review and approve all access to production data.

•	 Accelerate efforts to develop standardized profiles for all positions requiring access
   and increase security officer review and approval of the granting and deletion of
   nonstandardized profiles.

AGENCY COMMENTS

With the exception of the following comments, SSA concurred with our
recommendations.

•	 In the first recommendation, SSA did not agree that access for the Model District
   Office (MDO) Manager profile was excessive. Instead, the Agency contends that
   the MDO Manager profile requires access to high-risk transactions during
   implementation weekends when software is tested before it is released to the
   regions. To ensure that MDO Manager access is issued only for testing software
   applications, SSA plans to review this access for implementation weekends.

•	 In the second recommendation, SSA recognized the need to detect fraud but
   rejected our recommendation on the basis of cost. SSA believes other processes
   are already in place to adequately detect fraud.

•	 SSA took exception to the sixth recommendation because it believes line management is responsible
   for post-implementation and that security personnel are accountable for administering access control
   policies, standards, and procedures approved by the SSASSO and/or senior management.
•	 Similarly, SSA did not agree with the seventh recommendation for SSASSO staff to
   review and approve all access to production data. While SSA agrees there is a
   need to review and approve standardized and nonstandardized profiles, the Agency


                                                  iv
   does not believe this function is SSASSO’s responsibility. Again, SSA contends
   that this review and approval is the best performed by line management. SSA
   believes that its planned approach for developing standardized profiles will provide
   more effective controls over access to production data.

SSA also provided two technical comments. First, the Agency is concerned that our
definition of standardized profiles could imply that these profiles remain fixed. Second,
SSA had concerns that our use of the term “nonunique” to describe PINs assigned to
more that one profile could give the impression that some users are assigned more
than one PIN. The full text of SSA’s comments is included in Appendix B.

OIG RESPONSE

We continue to support our recommendations. Based on SSA’s comments, we have
the following responses.

•	 With regard to the first recommendation, we still believe the excess access for the
   MDO Manager profile should be removed. First, MDO Managers are not frequently
   involved in implementation weekends. At a minimum, SSA should limit MDO
   Manager access by using separate profiles that are only available to MDO
   Managers during implementation weekends. Second, SSA’s plan to audit high-risk
   transactions during implementation weekends does not acknowledge that high-risk
   transactions may be occurring at times other than on implementation weekends.

•	 While we acknowledge there are costs associated with implementing the second
   recommendation, we contend that SSA must fully use the audit trail files that were
   created to detect fraud.

•	 For recommendations six and seven, we still believe the role of security personnel
   include: periodic reviews of profiles and responsibility for reviewing and approving
   access to production data. We acknowledge that the assignment of profiles to
   individual users is the responsibility of line management. However, both
   recommendations refer to the assignment of transition ID’s to profiles—a function
   that should be the responsibility of security personnel.

We considered SSA’s technical comments while drafting our report. Even with the
assistance of SSA staff, we were unable to come up with more appropriate terminology.
We believe the inclusion of the technical comments in the report will minimize any of
the reader’s misconceptions.




                                            v
                              TABLE OF CONTENTS


                                                                                                             Page

EXECUTIVE SUMMARY ....................................................................................... i

INTRODUCTION .................................................................................................. 1

RESULTS OF REVIEW ........................................................................................ 6

    STANDARDIZED TOP SECRET PROFILES PROVIDED EXCESSIVE
    ACCESS TO MSSICS ..................................................................................... 6

    NONSTANDARDIZED TOP SECRET PROFILES FOR MSSICS
    WERE NOT ADEQUATELY CONTROLLED OR MANAGED ......................... 8

CONCLUSIONS AND RECOMMENDATIONS ................................................... 10


APPENDICES
APPENDIX A - Top Secret Profiles Having Excessive Access

APPENDIX B - SSA Comments

APPENDIX C - Major Contributors to This Report

APPENDIX D - SSA Organizational Chart

                            INTRODUCTION


OBJECTIVE

The objective of this audit was to determine whether, based on job duties, employees
had appropriate levels of access to the Supplemental Security Income (SSI) computer
applications and data.

BACKGROUND

The Office of Management and Budget (OMB) Circular A-127, Financial Management
Systems, requires that Federal agencies plan for and incorporate security controls into
sensitive financial management systems. OMB Circular A-130, Management of
Federal Information Resources, requires that agencies: (1) maintain and protect
individuals identifiable information and proprietary information in a manner that
precludes unwarranted intrusion upon personal privacy and violation of confidentiality;
(2) ensure agency personnel are trained to safeguard information resources;
(3) establish a level of security for all agency information systems commensurate with
the sensitivity of the information and the risk and magnitude of loss or harm that could
result from improper operation of the information system; and (4) ensure that only
authorized personnel have access to information systems. OMB Circular A-130 also
requires that agencies incorporate personnel controls, such as separation of duties,
least privilege, and individual accountability to ensure that adequate security is
provided for an agency’s major applications. Least privilege is defined as the practice
of restricting a user’s access to data files, processing capabilities, or type of access
(read, write, execute, delete) to the minimum necessary to perform his or her job. The
Social Security Administration (SSA) has incorporated this principle as a standard in its
Systems Security Handbook. In fact, the Handbook states “. . . controlling and limiting
access is the first line of defense in assuring the security and integrity of Agency
resources.”

SSA’s Systems Security Officer (SSASSO) staff, along with a network of regional and
Central Office component security staff members, have overall responsibility for
interpreting, developing, and implementing security policy. Security officers are
responsible for developing, implementing, and managing the security program within
their organizations, including administration of access controls. According to the
Systems Security Handbook, SSASSO staff provides guidance and advises security
officers in matters involving SSA’s security program, establishes systems security
policies and procedures, and administers the Computer Associates TOP SECRET
(TOP SECRET) profile access authorization matrix.



                                            1

Title XVI Program and Applications

The SSI program, authorized by title XVI of the Social Security Act, is a needs-based
program administered by SSA. SSI provides a minimum level of income to people who
are aged, blind, disabled, and/or who have limited income and resources. During
Fiscal Year (FY) 1998, qualifying individuals could receive a maximum of $494 in
Federal benefits per month plus medical assistance. Some States provide
supplementary benefits that are paid by SSA, but SSA receives reimbursement from
those States for the supplementary benefits it pays. In FY 1998, SSA paid out
$30.5 billion in SSI and supplementary State benefits to more than 6.6 million
recipients. SSI payments are not paid from the Social Security or Medicare trust funds,
but from the general fund of the U.S. Department of the Treasury.

The primary automated system for processing SSI claims is the Modernized
Supplemental Security Income Claims System (MSSICS). MSSICS is a mainframe-
based, on-line, interactive claims system using screens allowing for the establishment
and adjudication of SSI claims. MSSICS accumulates claimant data, such as
identification information, the disability determination decision, living arrangements,
financial resources, income, and potential eligibility for other benefits. SSA first
implemented MSSICS in 1992, with the latest major release in May 1997 to add post-
entitlement processing capabilities.

Access Control Software

SSA uses TOP SECRET, a commercial access control software package, to control
employee access to MSSICS and other production mainframe computer resources.
TOP SECRET protects computer resources by identifying authorized users and
controlling their access capability.

To obtain access to SSA’s systems through TOP SECRET, an employee first submits
Form SSA-120, Application for Access to SSA Systems, to the designated local security
officer. After the application is approved, it is forwarded to the appropriate regional or
component security officer, who assigns a personal identification number (PIN) and
initial password. The PIN is assigned as many profiles as the employee needs to
perform his or her job duties.

One of TOP SECRET’s primary mechanisms for controlling user access is the profile.
Profiles contain sets of common access authorizations referred to as transaction
identifications (ID) for groups of users. Access authorizations allow specific data entry
transactions and query capabilities for each computer screen. SSA defines and
assigns standardized profiles according to job position. SSA has developed more than
1,700 standardized profiles to control systems access for about 127,000 unique and
nonunique PINs assigned to these profiles.




                                            2

PINs may be assigned to more than one profile. A PIN is considered nonunique if it
has more than one profile assigned. Therefore, nonunique PINs are counted more
than once in summary totals. An illustration of unique versus nonunique PINs is shown
in Exhibit 1.

               Exhibit 1. Illustration of Unique Versus Nonunique PINs

                                           No. of Profiles
                Employee Name       PIN      Assigned        Unique/Nonunique
                Tom                 001           2              Nonunique
                Mary                002           3              Nonunique
                Joe                 003           1               Unique
                Sue                 004           2              Nonunique

                                  SUMMARY PROFILE REPORT
                           Profile     PINs Assigned No. of PINs
                           Profile 1         001
                                             002
                                             004
                                             etc.      3,000
                           Profile 2         001
                                             003
                                             etc.      2,000
                           Profile 3         002
                                             etc.      1,000
                           Profile 19        002
                                             004
                                             etc.      5,000
                           Total PINs (All Profiles) 127,000




We have identified 281 of the standardized profiles assigned to 73,500 PINs providing
access to the MSSICS application. Standardized profiles are defined as profiles that
are reviewed, approved, and controlled by SSASSO. These profiles are most
applicable to operational positions, such as benefit authorizers, which are standard
throughout SSA’s field locations. Nonstandardized profiles are generally defined as
profiles that are developed within a component for a particular person, position, or team
and are not standard across organizations such as SSA’s Office of Systems (OS)
personnel. SSA did not use standardized profiles in OS because of the diverse nature
of duties for OS personnel. Nonstandardized profiles are not reviewed or approved by
SSASSO, and may be custom-designed for one or more individuals.

MSSICS contains nearly 400 transaction IDs. Transaction IDs permit a user to access
different computer screens, containing various data entry fields, for performing specific
activities such as establishing a new claim, updating post-entitlement data, providing a
path or “gateway” to other input screens, and/or performing data queries.
SCOPE AND METHODOLOGY

                                            3

We obtained a listing and general description of the 396 MSSICS transaction IDs and
found 8 of the transaction IDs were most critical for processing or updating information.
We also obtained 281 standardized MSSICS profiles and identified 62 that provided
access to at least 1 of the 8 transaction IDs we identified as gateway screens. These
62 profiles allow employees to input and update data in MSSICS.

Exhibit 2: Critical Transaction IDs

                Transaction
                    ID                   Description                    Purpose of Transaction ID
    1.	            ZA05       SSI Claims Application, Establish,     Collects application and eligibility
                              Full/Deferred                          data.
    2.	            ZA15       Client Identification, Full/Deferred   Records personal identification data
                                                                     about the claimant.
    3.             ZJ30       Decision Input, Update
                Records adjudicative decisions.
    4.             ZJ95       Build Supplemental Security
           Begins the process that builds the
                              Record (SSR)
                          SSR.
    5.             ZJP3       Decision Input, Close Post-
           Records adjudicative decisions.
                              Entitlement Events

    6.             ZM11       Person Screen Status (Establish,
      Displays all available screens in the
                              Update)
                               claimant’s path and allows selection
                                                                     of those screens for updating.
    7.             ZM42       Post-Entitlement Menu
                 Allows entry to post-entitlement
                                                                     screens.
    8.             ZS97       Build Transaction SSR
                 Instructs MSSICS to send completed
                              Confirmation
                          data to the SSR.

Of the 62 profiles identified as having input and update access to MSSICS, we
identified 22 profiles with access privileges that did not appear excessive using job
position descriptions as a guide. For the remaining 40 profiles, we obtained a more
in-depth understanding of users’ job duties actually performed through discussions with
personnel within the Office of Operations and the Office of Finance, Assessment and
Management about the position descriptions and training requirements.

The 40 profiles control access for approximately 30,450 unique and nonunique PINs
among the following 4 SSA offices or components:

         •	   Office of Quality Assistance and Performance Assessment (OQA),
         •    Office of Automation Support (OAS),3
         •    Office of Central Operations, and
         •    SSASSO’s office.

We also discussed with the Office of Operations the inadequacy of the MSSICS system
to permit the segregation of high- and low-risk data entry fields. In addition, we

3
  OAS administers profiles for SSA’s field offices, teleservice centers, area directors’ offices, regional
offices, and Headquarters offices.


                                                       4

reviewed a typical nonstandardized profile used by SSA’s Office of Systems
Requirements (OSR). We also reviewed SSA’s Modernized Systems Operations
Manual and the Systems Security Handbook to determine pertinent operating and
security policies and procedures. We discussed with security personnel in each of the
four offices mentioned above how profiles are developed using the system
documentation of transaction IDs and how they are assigned and reviewed.

We did not determine the extent to which individuals were assigned multiple profiles;
whether assignment of multiple profiles provided too broad an access; or whether job
positions had excessive functions. These issues are subject to an ongoing review by
SSA’s PWC. We did not determine whether individuals had executed any improper
transactions as a result of excessive access because it was not practical for us to do
so.

We also planned to determine the number of employees in OS, including systems
analysts and programmers, who have improper access to input or modify MSSICS data.
However, despite our requests, SSA did not provide a listing of nonstandardized
profiles with access to MSSICS data for our review, including the number of PINs
assigned to these profiles, because of resource restraints. Although SSA did not
provide a list of nonstandardized profiles, it did provide an example of a typical
nonstandardized profile for our review. In addition, we did not review the access of
those employees who have access assigned through datasets or transaction IDs
directly.

We conducted the audit from January through May 1998 at SSA Headquarters in
Baltimore, Maryland. The audit was performed in accordance with generally accepted
government auditing standards.




                                           5

                       RESULTS OF REVIEW


We found that employee access to title XVI computer applications and data using
standardized profiles was excessive, and the use of nonstandardized profiles is not
adequately controlled.

STANDARDIZED TOP SECRET PROFILES PROVIDED EXCESSIVE
ACCESS TO MSSICS

We reviewed 62 standardized TOP SECRET profiles identified as having input and
update access to MSSICS and found 19 (31 percent) provided employees with input
and update capabilities in excess of those needed to perform their job duties. One of
these profiles controlled access for over 7,500 unique PINs. In total, the 19 profiles
controlled access for 25,330 unique and nonunique PINs. Specifically, 7 of the
19 standardized TOP SECRET profiles were assigned to approximately 18,800 PINs in
SSA field offices and program service centers. These seven profiles provided
excessive access to update functions that the employees assigned to these profiles
were neither trained nor authorized to process. The remaining 12 of the
19 standardized TOP SECRET profiles were assigned to over 6,500 PINs throughout
several SSA components, including SSASSO staff. In these 12 instances, excessive
access exposed sensitive SSA data to unauthorized access, modification, and
disclosure by individuals who had no job-related need for this access (see Appendix A
for details). This data involves information related to Social Security numbers,
disabilities, and title XVI benefits. As a result, employees could inadvertently or
intentionally change data and files affecting the amount of SSI benefits and recipient.
Even though we did not determine whether any fraudulent activities occurred, the
repercussions of such actions could be far reaching because of the large number of
PINs assigned to these profiles.

OMB Circular A-130 requires that agencies incorporate personnel controls, including
least privilege, to ensure that adequate security is provided for an agency’s major
applications. Least privilege is the practice of restricting a user’s access to data files,
processing capabilities, or type of access to the minimum necessary to perform job
duties. SSA’s Rules of Behavior for Users and Managers in SSA’s Systems Security
Handbook also specifies systems access is to be restricted to that needed to perform
assigned duties.

SSA employees were given authority to access systems in excess of that needed to
perform their job duties for four reasons: (1) MSSICS software was not designed so
that transaction IDs could be assigned to profiles to achieve adequate segregation of
high- and low-risk data entry fields on the computer screens; (2) security personnel did


                                              6

not change profiles as job positions evolved; (3) security personnel incorrectly
assigned improper access; and (4) SSASSO did not adequately review proposed
profiles and did not periodically review profiles to ensure they remain appropriate.

        MSSICS Software Limitations MSSICS software is not designed to allow for
proper segregation of low- and high-risk data entry fields on the screens when
assigning transaction IDs to profiles. SSA considers high-risk data entry fields as those
that allow the user to establish a new claim or process significant post-entitlement
actions resulting in a redetermination of benefits. Low-risk data entry fields are those
that do not affect the amount of benefit payment or result in a redetermination review,
such as direct deposit data and a change of address not resulting in a change in living
arrangements.

Some positions need access to MSSICS screens containing more data entry fields than
are needed to perform their job duties. Operations supervisors, field representatives,
generalist claims representatives, and title XVI claims representatives are authorized to
update high-risk data entry fields and are the only positions authorized to establish new
claims and fully adjudicate post-entitlement actions. However, standardized profiles for
title II claims representatives, service representatives, telephone service
representatives, inquiry and expediting specialists, SPIKES, and claims recovery
technical assistants include access to screens that allow these unauthorized staff to
update high-risk data entry fields. Access to the high-risk data fields by these
employees is unavoidable because the screens they use contain both the necessary
low-risk fields and the unnecessary high-risk fields. MSSICS software cannot suppress
the high-risk data fields so that these employees are limited in their access to only the
needed low-risk data fields. During our audit, we found that OAS was already aware of
this software limitation and had submitted a request to OS to correct the problem.
However, according to OAS, OS had not been able to respond to its request because
of higher priority projects.

       Profiles Were Not Changed as Job Positions Evolved Security personnel in
OAS did not change standardized profiles as job duties for certain positions evolved
because there was no specific requirement for security personnel to review and modify
profiles when job duties changed. It was not clear why security personnel did not
adhere to SSA’s Systems Security Handbook policy to ensure that excessive access
was not granted. Development clerks and data entry operators have access to all of
the transaction IDs needed to establish an initial claim and enter post-entitlement
actions—transactions typically reserved for claims representatives and field
representatives. According to OAS management, the necessity for those positions to
retain such extensive access was significantly reduced or completely eliminated with
the implementation of SSA’s Intelligent Workstation project. Over time, field
representatives have become able to carry out their own data entry tasks more quickly
and efficiently using remote workstations rather than relying on development clerks and
data entry operators.



                                            7

        Improper Access Assigned Security personnel incorrectly assigned improper
access because of lack of guidance or inadequate understanding of the capabilities of
the transaction IDs involved. In OQA and SSASSO, security personnel were
inadvertently or unknowingly assigned transaction IDs providing them the capability to
update or modify certain data in the MSSICS pending file when query only access was
all that was needed. After we discussed this with component security personnel during
our audit, both OQA and SSASSO agreed that the standardized profiles provided
excessive access, and they have initiated appropriate profile changes. OAS has also
initiated some of the profile changes we recommended during our audit. We believe
these types of mistakes occurred because OSR did not provide sufficient system
flowcharts, screen paths, and functional descriptions of transaction IDs to assist
component security officers to properly construct standardized profiles for each
respective component. In addition, limited training was provided on the effect the new
system features have on access rights that may require modifications to existing
profiles. For example, for the last major release of MSSICS software, 78 new screens
were added. While OSR provided facsimiles of the new screens and a listing of new
transaction IDs to security officers at the security kickoff meeting, they did not provide
adequate screen and transaction ID descriptions and pathing flowcharts. Descriptive
guidance was provided for only 16 of the 78 new transaction IDs. Additionally, security
officers had only a short time to develop new profiles and submit them to SSASSO for
review.

        Inadequate Review of Profiles SSASSO staff is responsible for reviewing and
approving all new or modified standardized profiles before they are implemented and
validating the access granted by the profiles. During its initial profile reviews, SSASSO
staff did not detect or prevent the erroneous transaction IDs from being assigned. We
could not determine why security personnel did not adhere to the Systems Security
Handbook policy requiring least privilege. While not specifically required, security
personnel did not perform periodic reviews to ensure profiles contained appropriate
transaction IDs.

SSA had not identified all employees with these excessive accesses nor determined
whether any of them had inappropriately made transactions. Without examining audit
trail files to determine whether individuals had used their excessive access to execute
any improper transactions, it is impossible to determine whether fraud or abuse has
occurred.

NONSTANDARDIZED TOP SECRET PROFILES FOR MSSICS WERE NOT
ADEQUATELY CONTROLLED OR MANAGED

SSA did not adequately control or manage nonstandardized profiles for employees in
OS. Access for these employees is neither assigned through the use of standardized
profiles nor reviewed or approved by SSASSO. Security personnel in OS create and
implement these profiles independent of SSASSO oversight. We could not determine
why SSASSO did not review or approve these profiles to ensure excessive access was


                                            8

not granted as required by the Systems Security Handbook. As a result, there was no
oversight to ensure sensitive SSI information was protected from unauthorized access,
modification, and disclosure. Excessive access allows employees to inadvertently or
intentionally update information on the MSSICS pending file and the SSR.
Unauthorized changes or modifications to these SSI records could result in a change in
a claimant’s eligibility and benefit amount.

Although SSA could not readily provide a listing of nonstandardized profiles for our
review, it did provide an example of a typical nonstandardized profile for an
undetermined number of systems analysts in OSR. We found these analysts could
input or change data associated with two of the eight sensitive transaction IDs, as
described in the Scope and Methodology section of this report.

As stated earlier, OMB Circular A-130 requires that agencies incorporate personnel
controls to ensure that adequate security is provided for an agency’s major
applications. According to SSA’s Systems Security Handbook, security officers are
responsible for developing, implementing, and managing security within their offices.
Their responsibilities include administering, monitoring, and assessing compliance of
access controls.

We believe SSA’s ineffective control and management of its employees’ access
privileges continues because SSA has implemented the profiles in such a way that the
readily available reporting and control mechanisms in TOP SECRET cannot be
effectively utilized without additional programming to monitor and review the access.
During our audit, one security officer stated that nonstandardized profiles were
extremely difficult to administer because each employee’s access had to be
administered individually. For this reason, we support SSA’s initiative to move toward
eliminating nonstandardized profiles and replacing them with standardized profiles.

We acknowledge that SSA has taken some preliminary steps toward classifying and
developing standardized profiles for employees in OS, which make up the majority of
nonstandardized users. OS established a workgroup in November 1997 to address
these access issues. As of April 1999, the workgroup had made some progress toward
developing and implementing standardized profiles for users having access to on-line
production systems. SSA anticipates Phase I of this project will be completed by
December 31, 1999. However, as of the date of this audit, only 12 of an estimated
125 profiles had been completed, and 35 others were under development. SSA needs
to make this project a higher priority in order to ensure its successful and timely
completion.




                                           9

     CONCLUSIONS AND RECOMMENDATIONS



SSA needs to strengthen security access controls for the 25,330 unique and nonunique
PINs that have excessive access. Excessive access could result in loss of data, loss of
funds, and the unauthorized release of personal information. This vulnerability
increases SSA’s exposure to fraud in the SSI program. In order to establish proper
security controls and effectively implement the policy of least privilege, SSA needs to
restrict authorized employee access to that needed to perform assigned duties. SSA
also needs to improve security officers’ monitoring and oversight of the granting of
access throughout SSA.

FINDING 1: STANDARDIZED TOP SECRET PROFILES PROVIDED EXCESSIVE
ACCESS TO MSSICS

We recommend that SSA:

   1. 	 Remove excessive or inappropriate transaction IDs from those profiles identified
        as having excessive access (see Appendix A).

   2. 	 Examine the activity in the audit trail files of all PINs assigned to the profiles
        identified in the Appendix to determine whether excessive transactions were
        performed to commit fraud and refer any violations to the OIG.

   3. 	 Review all other MSSICS TOP SECRET profiles and remove those transaction
        IDs that permit inappropriate or excessive access for the assigned duties and
        responsibilities.

   4. 	 Modify MSSICS software to segregate access between high- and low-risk data
        entry fields.

   5. 	 Provide improved training and guidance to security officers assigning and
        reviewing transaction IDs to standardized TOP SECRET profiles for which they
        are responsible. As part of this training, SSA should provide improved system
        flow charts and functional descriptions of new transaction IDs, particularly for
        major software releases when many new capabilities are added.

   6. 	 Perform periodic post-implementation reviews of profiles by security staff for
        proper assignment of transaction IDs to profiles based on the concept of least
        privilege.




                                              10

FINDING 2: NONSTANDARDIZED TOP SECRET PROFILES FOR MSSICS ARE
NOT ADEQUATELY CONTROLLED OR MANAGED

We recommend that SSA:

   7. Require that SSASSO staff review and approve all access to production data.

   8. 	 Accelerate its efforts to develop standardized profiles for all positions requiring
        access and increase security officer review and approval of the granting and
        deletion of nonstandardized profiles.

AGENCY COMMENTS

With the exception of the following comments, SSA concurred with our
recommendations. The full text of SSA’s comments is included in Appendix B.

•	 In the first recommendation, SSA did not agree that access for the MDO Manager
   profile was excessive. Instead, the Agency contends that the MDO Manager profile
   requires access to high-risk transactions during implementation weekends when
   software is tested before it is released to the regions. To ensure that MDO
   Manager access is issued only for testing software applications, SSA plans to
   review this access for implementation weekends.

•	 In the second recommendation, SSA recognized the need to detect fraud but
   rejected our recommendation on the basis of cost. SSA believes other processes
   are already in place to adequately detect fraud.

•	 SSA took exception to the sixth recommendation because it believes line
   management is responsible for post-implementation and that security personnel are
   accountable for administering access control policies, standards, and procedures
   approved by the SSASSO and/or senior management.

•	 Similarly, SSA did not agree with the seventh recommendation for SSASSO staff to
   review and approve all access to production data. While SSA agrees there is a
   need to review and approve standardized and nonstandardized profiles, the Agency
   does not believe this function is SSASSO’s responsibility. Again, SSA contends
   that this review and approval is the best performed by line management. SSA
   believes that its planned approach for developing standardized profiles will provide
   more effective controls over access to production data.

SSA also provided two technical comments. First, the Agency is concerned that our
definition of standardized profiles could imply that these profiles remain fixed. Second,




                                             11

SSA had concerns that our use of the term “nonunique” to describe PINs assigned to
more that one profile could give the impression that some users are assigned more
than one PIN.

OIG RESPONSE

We continue to support our recommendations. Based on SSA’s comments, we have
the following responses.

•	 With regard to the first recommendation, we still believe the excess access for the
   MDO Manager profile should be removed. First, MDO Managers are not frequently
   involved in implementation weekends. At a minimum, SSA should limit MDO
   Manager access by using separate profiles that are only available to MDO
   Managers during implementation weekends. Second, SSA’s plan to audit high-risk
   transactions during implementation weekends does not acknowledge that high-risk
   transactions may be occurring at times other than on implementation weekends.

•	 While we acknowledge there are costs associated with implementing the second
   recommendation, we contend that SSA must fully use the audit trail files that were
   created to detect fraud.

•	 For recommendations six and seven, we still believe the role of security personnel
   include: periodic reviews of profiles and responsibility for reviewing and approving
   access to production data. We acknowledge that the assignment of profiles to
   individual users is the responsibility of line management. However, both
   recommendations refer to the assignment of transition ID’s to profiles—a function
   that should be the responsibility of security personnel.

We considered SSA’s technical comments while drafting our report. Even with the
assistance of SSA staff, we were unable to come up with more appropriate terminology.
We believe the inclusion of the technical comments in the report will minimize any of
the reader’s misconceptions.




                                           12

APPENDICES

                                                                         APPENDIX A


            TOP SECRET PROFILES HAVING

                 EXCESSIVE ACCESS


 The Social Security Administration’s 12 TOP SECRET profiles identified by the Office
 of the Inspector General as having inappropriate or excessive access.

                   No. of                                                  High-Risk
                    PINs                                                Transaction IDs
       Profile    Assigned     Component            Position              Not Needed
1.    POI118P          1,210       OQA        General                  ZA15, ZJ30, ZJP3
2.    POI166P             21       OQA        Regional/Local           ZA15, ZJ30, ZJP3
                                              Security Officer
3.    POI167P             20       OQA        Alternate Regional       ZA15, ZJ30, ZJP3
                                              Security Officer
4.    POI168P             29       OQA        Local Security Officer   ZA15, ZJ30, ZJP3
5.    POI169P             18       OQA        Alternate Local          ZA15, ZJ30, ZJP3
                                              Security Officer
6.    POI348P              9       OQA        National Disability      ZA15, ZJ30, ZJP3
                                              Determination Service
                                              System Disability
                                              Insurance Quality
                                              Reviewer
7.    PRO765P             10       OAS        Model District Office    ZA05, ZA15, ZJ30,
                                              Manager                  ZJ95, ZS97
8.    PRX015P             39       OAS        Operations Officer       ZJ95, ZM11, ZS97
9.    PRX016P             43       OAS        Staff Assistant          ZJ95, ZM11, ZS97
10.   PRX026P          4,252       OAS        Development Clerk        ZA05, ZA15
11.   PRX287P           913        OAS        Data Entry Operator      ZA05, ZA15
12.   PSS843P              3     SSASSO       Management Analyst       ZJ30
TOTAL PINs             6,567
                APPENDIX B


SSA COMMENTS

                                                                         APPENDIX C


 MAJOR CONTRIBUTORS TO THIS REPORT


Office of the Inspector General

Donald G. Franklin, Director, Systems Audits


Albert J. Darago, Audit Manager


Randy J. Townsley, Auditor-in-Charge


Anita M. McMillan, Senior Systems Auditor



For additional copies of this report, please contact the Office of Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-13-98-12009.
                       APPENDIX D


SSA ORGANIZATIONAL CHART

